LEGAL SERVICES CORPORATION

    OFFICE OF INSPECTOR GENERAL




              Report to the
 Subcommittee on Commercial and
   Administrative Law of the House
Committee on the Judiciary Regarding
  Activities of California Rural Legal
            Assistance, Inc.




           September 14, 2006
                               Executive Summary

This Interim Report contains the findings to date of the Office of Inspector
General (OIG) of the Legal Services Corporation (LSC) resulting from an
investigation into allegations from a confidential source lodged against California
Rural Legal Assistance (CRLA), an LSC grantee. The allegations were referred
to the OIG for investigation by the Chairman of the House Judiciary Committee’s
Subcommittee on Commercial and Administrative Law and by Congressman
Devin Nunes (CA 21). The complaint alleges that CRLA focuses its resources on
impact work, to the detriment of basic services work, and farmworker and Latino
issues, to the detriment of the urban and non-Latino populations in CRLA’s
service area. The complaint also alleges specific violations of restricted activities
imposed upon LSC grantees and directly resulting from CRLA’s desire to engage
in impact work.

The OIG developed evidence from multiple sources and conducted its own
research on CRLA activities. The OIG finds substantial evidence that CRLA has
violated federal law by:

       •   soliciting clients;
       •   working a fee generating case;
       •   requesting attorney fees;
       •   associating CRLA with political activities.

The OIG, however, could not complete its investigation at this time due to
CRLA’s failure to provide the OIG certain requested information as required by
federal law and LSC grant requirements. In addition, the OIG has encountered
difficulties in trying to determine whether other activities comply with federal law
because of inadequate LSC timekeeping requirements

The OIG also uncovered several additional CRLA practices, including conducting
significant work without a client, that appear to be impact oriented -- raising
serious concerns about CRLA’s deviation from Congress’ intended purpose in
enacting the 1996 reforms, to refocus LSC grantees on the provision of basic
legal services to indigent persons seeking assistance -- but that may or may not
violate specific provisions of federal law:

   •   potential lobbying activities;
   •   monitoring employers and public agencies;
   •   the filing of amicus briefs in its institutional capacity;
   •   filing cases on behalf of the “general public” under California’s unfair
       competition law;
   •   CRLA’s timekeeping and case management practices at least create the
       condition in which representing ineligible aliens is possible without
       detection.



                                                                                    i
The OIG is concerned that in addition to diverting scarce resources away from
the provision of services from those who request assistance, much of this
clientless work may lead to specific violations of the LSC regulations, such as
solicitation. The OIG requires additional information from CRLA to make final
determinations of the appropriateness of these activities.

Finally, the OIG has only begun to examine whether CRLA disproportionately
focuses its resources on farmworker and Latino work, and if so, whether such
practice is inappropriate for an LSC grantee. The OIG, therefore, is not prepared
to make any findings regarding this allegation at this time.




                                                                               ii
                                       Note

The OIG has found substantial evidence to establish the findings contained
herein. This report, however, is not a comprehensive review of the confidential
source’s allegations or ensuing concerns. Though the OIG submitted a
document and data request to CRLA on March 16, 2006, the grantee, as of this
report, has failed to provide some requested materials and refused the OIG
access to other materials. We are awaiting the additional responsive materials
from CRLA and thrice referred CRLA’s failure to comply with the OIG’s requests
for information to LSC management for action. LSC management has had
several contacts with CRLA in an effort to induce the grantee to comply and is
now considering appropriate action to ensure CRLA’s compliance.

Based on the information and documentation provided by the confidential source
and LSC; original OIG research; other evidence gathered during the course of
our investigation and the materials that the OIG has been able to acquire from
CRLA, the OIG finds substantial evidence that CRLA is in violation of several
provisions of the LSC Act, the 1996 Appropriations Act and LSC regulations.

Additional evidence raises serious concerns that CRLA may be violating other
provisions of federal law. In order to further determine CRLA’s compliance status
the OIG requires all materials thus far requested from CRLA and is working on a
supplemental data request for CRLA that will likely bear on the investigation.
The OIG also anticipates the need to conduct additional interviews of CRLA staff,
including employees not previously interviewed. We had hoped to have
completed some of these additional interviews before issuing any report,
interviews that would have included CRLA senior management, thereby affording
CRLA the opportunity to address some issues raised in this report. Such
interviews cannot take place, however, before the OIG obtains the documents
and data requested from CRLA, but which CRLA has either failed to or refused to
provide.

Finally, the OIG planned to request records from CRLA in hopes that we would
be able to determine the amount of human resources, i.e. time, CRLA expended
on alleged activities and whether LSC funds were used to support CRLA’s
involvement in such activities. The OIG understands, however, that LSC’s
timekeeping requirements do not require grantees to disaggregate their funding
for payroll purposes. That is to say, under the regulation, there is no identifiable
nexus between the expenditure of employee time and the funding source against
which the employee’s time is charged. Rather, employees are paid from the
grantees’ aggregated grant funds. In the case of CRLA, employee positions are
designated as funded by a particular grant(s), however, the employee’s work is
not limited to the type of work for which the particular grant was awarded. LSC
requirements provide no way of actually deriving from grantees’ time keeping
records, either from the case management systems or the payroll systems how
grant funds are actually being spent, or ensuring grant funds are not being



                                                                                  iii
diverted to subsidize non-grant related activity. At best, imprecise record
keeping of this sort forecloses opportunities to promote programmatic efficiencies
and to hold grantee’s accountable for results; at worse, it cloaks the detection of
fraudulent or abusive expenditure of tax dollars.

For these reasons, the OIG reiterates that though the OIG has obtained
substantial evidence to support some findings of noncompliance with the LSC
Act, the 1996 Appropriations Act and LSC regulations; and other evidence
suggesting additional noncompliance by CRLA, the findings contained in this
report are not comprehensive.




                                                                                 iv
                                             Table of Contents

I. Summary of the Complaint .........................................................................................1

II. OIG Process ...............................................................................................................3

III. Findings to Date .........................................................................................................4

    A. CRLA Prioritizes Impact Work Over Services Work Which Results in
       Specific Violations of LSC Regulations. ................................................................4

         1. Internal Documents and Culture Illustrate CRLA’s Preference for
            Impact Work Over Providing Basic Legal Services..........................................6

         2. CRLA’s Preference for and the Deleterious Effects of Engaging in
            Impact Work Are Illustrated by CRLA’s Involvement in Two Example
            Cases. .............................................................................................................7

              a. CCC v. Modesto Illustrates CRLA’s Engagement in Impact
                 Litigation. ....................................................................................................8

              b. The McBride Case Provides an Example of CRLA’s Participation in
                 Impact Litigation Originating in a Branch Office Other Than
                 Modesto....................................................................................................12

              c. CRLA’s Desire to Participate in Impact Litigation Causes CRLA to
                 Violate LSC Restrictions...........................................................................14

                   i.   CRLA Performs Work Without a Client. .............................................14

                   ii. CRLA Solicits Clients. ........................................................................17

                   iii. CRLA Inappropriately Worked a Fee Generating Case. .....................18

                   iv. CRLA Inappropriately Requested Attorneys Fees...............................20

    B. CRLA Officials Associate the Grantee with Political Activities.............................20

III. Areas of Continuing Concern ...................................................................................21

    C. CRLA Engages in Other Activities That Tend to Support the Claim that
       CRLA Prioritizes Impact Work Over Service Work..............................................21

         1. CRLA Engages in Activities that May Violate Restrictions Prohibiting
            Lobbying. .......................................................................................................21




                                                                                                                      v
         a. CRLA’s Comments on the Housing Elements May Be Considered
            Lobbying...................................................................................................22

         b. CRLA Attempts to Influence Other State and Local Officials
            Regarding Legislation and Executive Branch Statements of General
            Applicability and Future Effect. .................................................................24

              i. Information Regarding CRLA’s Lobbying Activities is Readily
                 Available on the Internet. ...................................................................24

              ii. CRLA Describes Potentially Impermissible Contact with State
                  and Local Regulatory Agencies...........................................................25

    2. CRLA Engages in Various Types of Monitoring Activities. ............................27

    3. CRLA Filed Cases Under California’s Unfair Competition Law on
       Behalf of the General Public and Who Are Otherwise Not Named
       Plaintiffs. ........................................................................................................29

    4. CRLA Files Amicus Briefs. ...........................................................................30

         a. CRLA Files Amicus Briefs in Its Institutional Capacity and Not on
            Behalf of Any Client. .................................................................................30

         b. Even When CLRA Files Amicus Briefs on Behalf of Clients The
            Quality of Timekeeping Records Is Questionable.....................................31

D. CRLA’s Timekeeping and Case Management Practices Create Conditions
   in Which Advocates Can Serve Undocumented Persons Without
   Detection. ............................................................................................................32

E. CRLA Allegedly Focuses Its Resources on Latino Work.....................................33




                                                                                                                vi
                            I. Summary of the Complaint

In late September 2005, Congress forwarded a complaint from a Confidential
Source (CS) dated August 31, 2005 to the Office of Inspector General (OIG) of
the Legal Services Corporation (LSC). The complaint alleges California Rural
Legal Assistance, Inc. (CRLA), an LSC grantee, is focused on advancing the
organization’s own social and political agenda, resulting in a decline in the
provision of basic legal services to prospective clients who walk into the CRLA
offices requiring service. Additionally, the complaint alleges that CRLA focuses a
disproportionate amount of resources on farmworker and Latino issues. Based
on the personal knowledge of the CS, the complaint provides several examples
of activities supporting this alleged practice and also alleges some specific
instances of noncompliance with LSC Regulations resulting from CRLA’s desire
to promote its own agenda.

The CS offered her motivation for coming forward; she stated that she believes
many eligible citizens in the large urban populations in CRLA’s service areas are
not being served by CRLA and that this is in large part due to CRLA’s focus on
impact work, its practice of affirmatively seeking clients for the litigation of cases
in which CRLA senior management wishes to be involved, and its involvement in
cases in which clients are already represented by other counsel. The CS, a
Latina herself, also stated that CRLA’s work is focused disproportionately on
impact cases involving Latino issues to the detriment of other populations within
CRLA’s service area, for example the Hmong population and the African-
American population, and to the detriment of the critical legal needs of individual
clients.

The CS stated that CRLA pressures employees to engage in “impact work,”
rather than “service work.” Based on personal knowledge of the CRLA Case
Handling and Procedures Manual, the CS described “impact work” as that which
“is designed to produce benefits for a large number of persons and can include
litigation, legislation and community education. It can be law reform (changing
the law to benefit clients and others) as well as law enforcement (enforcing the
law to benefit clients and others).” According to the CS, service work is “the day-
to-day legal assistance provided to individual eligible clients,” and CRLA’s Case
Handling and Procedures Manual defines “service work” as work that primarily
benefits an individual client and is not brought to establish a broader rule of law
or to enforce laws that would benefit a larger number or clients.

The CS identified an example of managements’ pressure on employees to
perform impact work. She stated that Cynthia Rice, the CRLA Director of
Litigation, Advocacy and Training (DLAT)1 responsible for the Modesto office,

1
  The DLATs report directly to the CRLA Executive Director. Each DLAT has program-wide
operational duties and responsibilities and is responsible for CRLA-wide policy and advocacy in
designated substantive areas.      Additionally, with the Deputy Director, the DLATs provide
supervision to all the CRLA branch offices.


                                                                                             1
told the Modesto office staff on more than one occasion that the Modesto office
was not doing enough impact work and was expected by CRLA management to
increase the amount of impact work performed. According to the CS, DLAT
Rice stated that the Modesto office “could and should do more impact work.”

The CS described a list of activities undertaken by CRLA to illustrate CRLA’s lack
of focus on basic legal needs in favor of impact work, some of which may violate
LSC restrictions. The CS listed the following: CRLA staff involvement in cases in
which CRLA did not have a client and CRLA staff performing work in these cases
on behalf of individuals who may or may not qualify for CRLA services and are
already represented by other counsel; CRLA searching for a client in order to
become counsel of record in cases already being brought by other counsel; a
CRLA-wide effort undertaken without a client to comment to city and county
officials regarding housing development plans; CRLA Executive Director, DLAT
and staff travel to Mexico for the purpose of providing training; and a lack of
accountability of Community Worker’s time (particularly those working on migrant
farmworker issues). In addition, the CS stated her belief that the working
environment at CRLA Modesto fostered the provision of legal assistance to
undocumented persons. The CS stated that she personally provided legal
services to undocumented aliens on CRLA time, she is aware that other staff in
the Modesto office did so as well, and the former Directing Attorney of the office
was aware that undocumented persons were being served. The CS stated that
the client intake and other procedures in place during her tenure allowed for this
to take place.

The OIG undertook to review several of these allegations in order to determine
whether they could be substantiated. Most of our work thus far has focused on
the following allegations: CRLA staff involvement in cases in which CRLA did not
have a client and CRLA staff performing work in these cases on behalf of
individuals already represented by other counsel; CRLA searching for a client in
order to become counsel of record in cases already being brought by other
counsel; and a CRLA-wide effort undertaken without a client to comment to city
and county officials regarding housing development plans. The CS provided the
OIG with some specific information supporting these allegations and we have
requested information from CRLA to undertake a comprehensive review of the
allegations.




                                                                                2
                                       II. OIG Process

The OIG investigated the overarching complaint that CRLA focuses its scarce
resources on impact work in furtherance of farmworker and Latino issues to the
detriment of both basic services work and other client populations within CRLA’s
service area, and each of the specific allegations of noncompliance with LSC
restrictions generally resulting from CRLA’s alleged pursuit of its institutional
agenda.

After reviewing the information sent in by the CS, the OIG, including the
Inspector General, began by interviewing the CS.2 First, the OIG interviewed the
CS by telephone and preliminarily determined that the CS was likely credible.
Because the CS’s information indicated that CRLA may have engaged in
activities violative of the LSC restrictions, we arranged an in person interview
with the CS. We spent approximately one and one-half days with the CS,
gathering additional and clarifying information. We determined the CS was
credible. The CS provided the OIG with a sworn statement indicating that the
information contained therein is true and accurate to the best of the CS’s
knowledge.

The OIG conducted background research on a broad range of CRLA’s activities.
The OIG researched publicly available sources on the Internet as well as
information available at LSC headquarters, such as CRLA’s funding application,
to ascertain whether CRLA activities indicate a preference by CRLA’s to engage
in “impact cases” and those that benefit a particular segment of California’s
population and that limit CRLA’s ability to support “services cases.”

The OIG conducted extensive interviews with CRLA employees. The OIG
interviewed several employees at CRLA’s Modesto office, including attorneys,
community workers and other support staff.

Finally, the OIG requested that CRLA produce relevant documents and data.
Although CRLA refused to provide key documents and data,3 the OIG reviewed
the material provided for relevant facts to support or refute the allegations, to
attempt to discern how CRLA expends its scarce resources and to determine
whether CRLA’s activities comply with the LSC restrictions.




2
  The Inspector General was involved personally and substantially in the initial stages of the
review, due to the serious nature of the issues raised by the CS’s allegations.
3
  See supra p. iii.


                                                                                                 3
                                    III.    Findings to Date

For some of the allegations, the OIG found substantial evidence to support
findings of noncompliance with the LSC Act,4 the 1996 Appropriations Act,5 and
LSC Regulations.6

A.      CRLA Prioritizes Impact Work Over Services Work Which Results in
        Specific Violations of LSC Regulations.

The OIG found information indicating CRLA’s preference for impact work. The
OIG also found substantial evidence to support specific violations of the LSC Act,
LSC’s 1996 Appropriations Act and LSC regulations that appear to be driven by
the desire to engage in impact work.

At the outset, it is important to note that a grantee bringing a case on behalf of a
particular client that may also have broader reaching effects, thus making it an
“impact” case, does not violate the LSC regulations. However, a grantee that
expends its limited precious resources prioritizing such cases in order to push an
impact agenda causes some concern regarding the implementation of the 1996
reforms, which appear to have been intended to refocus legal services delivery
on the day-to-day legal problems of the poor rather than on activism and impact
oriented work perceived to be the focus prior to 1996.

An informative discussion of Congressional intent regarding the 1996 reforms
may be found in LSC’s Brief to the U.S. Supreme Court in the Velazquez case.7
In Part B of the brief, under the heading, Congress Decides to Continue Funding
the LSC Program As Long As the Program Focuses on Basic Legal Services,
LSC wrote (internal footnotes omitted):

        Despite these restrictions, some members of Congress came to
        believe that LSC was under the influence of "liberal activists who
        favor a militant agenda." 141 Cong. Rec. S14,592 (Sept. 29, 1995).
        See also Pet. App. (99-603) at 48a-49a. In the mid-1990s, some of
        these representatives attempted to eliminate LSC entirely.

        In 1996, rather than cease funding for LSC, Congress enacted
        compromise legislation that imposed new restrictions designed to
        refocus LSC on its central mission: "to ensure that funding is used
        to provide the traditional legal services that are most needed by
        poor people." 141 Cong. Rec. S14,605 (Sept. 29, 1995) (Sen.

4
  Legal Services Act, 42 U.S.C. §§ 2996-2996(l).
5
  Omnibus Consolidated Rescissions and Appropriations Act of 1996, Pub. L.101-134, 110 Stat.
1321 (1996).
6
  LSC Regulations, 45 C.F.R. §§ 1600-1644.
7
  LSC v. Velazquez, In the Supreme Court of the United States, Brief for Petitioner Legal Services
Corporation, pp. 2-5.


                                                                                                4
       Stevens). See also S14,590 ("These restrictions provide the
       necessary guidance to take Legal Services back to its primary
       mission." (Sen. Kassebaum)); 142 Cong. Rec. H8178 (July 23,
       1996) ("the purposes which we all endorsed [were] to meet the day-
       to-day legal problems of the poor.") (Rep. Fox); H8180 ("They are
       supposed to be doing the ham and eggs work for poor people.")
       (Rep. Hunter); 142 Cong. Rec. H8189 (July 23, 1996) (emphasizing
       "bread-and-butter services") (Rep. Torkildsen); 141 Cong. Rec.
       S18,160 (Dec. 7, 1995) (emphasizing "such routine legal matters as
       consumer problems, housing issues, domestic and family cases,
       and . . . public benefits") (Sen. Sarbanes).

       The new restrictions, which were incorporated in the 1996 Omnibus
       Appropriations Act, Pub. L. No. 104-134, 110 Stat. 1321 (the "1996
       Act"), [ ] were designed to prevent federal funds from subsidizing,
       for example, class action litigation or cases in which attorneys' fees
       are sought; representations of certain aliens or incarcerated
       persons; or certain lobbying and advocacy activities. 1996 Act § §
       504(a)(2)-(4), (7), (11), (13), (15), and (18).

       The congressional debates make clear that the 1996 compromise
       legislation was intended to save LSC and preserve its original focus
       and mission. As Senator Domenici, one of the principal architects of
       the legislation, stated: "While some may not like these restrictions,
       they are necessary to . . . protect LSC from the negative
       perceptions of those who wish to see its termination." 142 Cong.
       Rec. S1963 (Mar. 13, 1996). See also 141 Cong. Rec. S14,607
       (Sep. 29, 1995) ("Many of these restrictions are necessary to
       ensure that the program as a whole is supported and funded.")
       (Sen. Lautenberg); S14,612 ("Some restrictions are necessary to
       ensure support for the program. . . . The [compromise] . . . would
       correct the harsh injustice of the committee bill and enable [LSC] to
       continue its important work.") (Sen. Kennedy).

With this in mind, the OIG undertook the following review of CRLA’s basic-field
grant application for LSC’s Service Area CA-31, internal CRLA documents
provided by CRLA, the CS and other sources, anecdotal evidence from the CS
and other witnesses regarding the work culture of CRLA, internal CRLA
communications8, two sample cases, CRLA’s involvement in California’s Housing
Elements and other lobbying type activities. The review clearly reveals CRLA’s
propensity to engage in “impact” work and the ensuing problems stemming from



8
   None of the internal CRLA communications received by the OIG contain attorney client
information. The provider of the materials redacted any information protected as confidential
attorney client information before turning the materials over the OIG.


                                                                                           5
behavior more akin to activism than providing basic legal services to the
indigent.9

        1. Internal Documents and Culture Illustrate CRLA’s Preference for
           Impact Work Over Providing Basic Legal Services.

In addition to the CS’s statement that CRLA management pressures staff to
engage in more “impact” work, internal CRLA documents reveal CRLA
management’s desire for the organization to prioritize “impact” work. CRLA’s
Case Handling and Office Procedures Manual states:

        It is CRLA’s goal to have all of its case handlers spend at least 50%
        of their time working on impact cases and projects. “Impact” work
        is designed to produce benefits for a large number of persons. It is
        work that should provide real as opposed to “paper” victories for our
        clients and others. “Impact” work can include litigation, legislation
        and community education. It can be law reform (changing the law
        to benefit clients and others), as well as law enforcement (enforcing
        the laws to benefit clients and others). Impact work normally
        involves one of CRLA’s areas of emphases.

        “Service” work primarily benefits an individual client; it is not
        brought to establish a broader rule of law or to enforce laws that
        would benefit a large number of clients. There may be instances,
        however, where individual cases become “impact” cases. For
        example, an individual case which targets a particular defendant
        engaged in illegal practices which affect a substantial number of
        persons might become an “impact” case.[10]

Additionally, CRLA internal documents provided by CRLA and the CS indicate
that in substantive priority areas, such as housing, education, and environmental
justice, CRLA plans a litigation and advocacy strategy based on CRLA desired
goals and outcomes, and not necessarily in response to client initiated contact.
For example, a memorandum from DLAT Jacobs and Darryel Nucua, Co-Chairs
for CRLA’s Housing Task Force11 (Housing Elements Priorities Memo), explains
that CRLA adopted goals and objectives in the area of housing, including
“…increasing the use of pro per packets in order to allow more attention to

9
   This concentration on “impact” work and lack of focus on basic legal services is particularly
disturbing in light of LSC’s recently released “Justice Gap Report.” According the Justice Gap
Report, LSC grantees generally self-reported turning away of half of all eligible clients who seek
services for lack of financial resources. LSC management has agreed not to release the specific
data provided by each grantee, however CRLA’s self-reporting is consistent with the national
average.
10
   CRLA Case Handling and Office Procedures Manual, Volume 1, Section IV.E., p. 7.
11
    The last six years of CRLA’s Case Statistical Reporting data (from 2000 through 2005)
indicates that roughly half of all of CRLA’s cases are Housing related. Note: LSC is currently
undertaking to revamp its definition of “case” for LSC reporting purposes.


                                                                                                6
impact work…”12 Another memorandum presented and discussed at CRLA’s
2003 Asilomar Priorities Setting Conference from Salinas Office Director Mike
Mueter and Migrant Unit Advocates explains how CRLA’s DLAT structure “has
done a very good job of increasing CRLA’s impact litigation around Labor and
Housing issues.”13 The memorandum expresses the view that “[CRLA needs] to
strengthen the planning, selection, and targeting of all of [CRLA’s] advocacy,
including impact litigation, to insure that [CRLA’s] limited resources are used in
the most strategic manner possible.” The memorandum goes on to complain,
however, “[w]e share the general feeling that little or no institutional support is
provided for the myriad [of migrant unit] tasks other than impact litigation that
field offices engage in on a daily basis, including case referrals, brief service,
individual services cases, community education and outreach, comite
[committee] development, personal and staff development, and private attorney
recruitment.”14 These are but a few examples illustrating CRLA management’s
preference for “impact” work contained in CRLA’s basic structure and planning
within both Basic Field and the Migrant units.

        2. CRLA’s Preference for and the Deleterious Effects of Engaging in
           Impact Work Are Illustrated by CRLA’s Involvement in Two Example
           Cases.

The following two cases exemplify how forcing the organization to focus on
“impact” litigation can lead grantees afoul of the LSC regulations and the intent of
the 1996 reform legislation.15

12
   Memorandum to 2003 Priority Setting Conference from Ilene J. Jacobs & Darryel Nacua, re:
Housing Priorities, June 2, 2003, p. 1.
13
    Memorandum to Jose Padilla, CRLA Board of Directors, CRLA Staff from Mike Meuter and
Migrant Unit advocates, re: Migrant Unit Report and Recommendations for 2003 Priorities
Conference, October 17, 2003, p. 3.
14
   Id. (emphasis added).
15
    The CS also described a third illustrative case, but has not been able to obtain sufficient
information to include CRLA’s involvement in the discussion. The facts of the case raise concern
that many of the issues surrounding focus on engaging in impact work, discussed herein, will
likely arise in this case. Thus far, the OIG has learned the following:

The CS indicated that CRLA undertook a case involving claims made against the Ceres, CA,
Police Department for civil rights violations in relation to gang sweeps following a gang related
shooting of a police officer. The OIG obtained internal CRLA communications indicating that
shortly after the shooting, in late January 2005, Executive Director Padilla instructed the same
new CRLA attorney working the CCC v. Modesto case to “…obtain a client and investigate the
pattern of law enforcement here and run it by [DLAT Rice] and Jack Daniel and maybe LCCR
counsel.” Two weeks later, on February 10, 2005, the ACLU issued a press release entitled “Civil
Rights Groups Seek Police Records Following Widespread Sweeps in Ceres” that states “[t]he
ACLU-NC, CRLA, LCCR and the Stanislaus County ACLU Chapter will continue to monitor the
situation.” Statement of ACLU of Northern California, “Civil Rights Groups Seek Police Records
Following Widespread Sweeps in Ceres,” February 10, 2005. Apparently no action was taken
regarding the matter until August 2005, see Modesto Bee, Aug. 5, 2005, p. A-1, “10 file claims in
Ceres post-shooting gang sweeps.” Additionally, according to the CS, two of the ten
complainants represented by CRLA are CRLA employees, one is the wife of one of the
complainant employees, and one is the cousin of another employee. The article indicates that


                                                                                               7
            a. CCC v. Modesto Illustrates CRLA’s Engagement in Impact
               Litigation.

The CS identified a particular lawsuit CRLA’s Modesto Office is pursuing at the
direction of top level CRLA management as an example of CRLA’s preference
for expending its resources on “impact cases.” CRLA became involved in this
case even though it did not have a client in the case and CRLA staff performed
work in this case on behalf of individuals already represented by other counsel.
Additionally, CRLA allegedly expended significant time searching for a client in
order to join the list of counsel of record.

This case, CCC v. Modesto,16 addresses the disparate provision of municipal
services, such as street lights and sewer hook-up, by the City of Modesto to
people who live in pockets of county land unincorporated by the city though the
area is surrounded by or is on the periphery of the city’s limits. The CS explained
that the disparate services issue first came to the attention of the Modesto Office
in the Spring of 2003 when at a conference, a CRLA staff attorney met a woman
who was a resident of an area within the City of Modesto known as Robertson
Road. According to the CS, the community in the Robertson Road area was well
organized and for many years had been seeking to become annexed to the City
and connected to the City sewer. The CS stated that she discussed this issue
with CRLA DLATs Ilene Jacobs, responsible CRLA-wide for the substantive area
of housing issues, and Cynthia Rice, responsible for the Modesto office. Neither



the claimants are represented by CRLA and further corroborates the CS’s assertion that two of
the claimants are indeed CRLA employees and indicates that another complainant may also be
related to one of the complainant employees. Id.

Similarly, the OIG recently learned of a fourth such case. A knowledgeable witness explained
that CRLA Management is particularly interested in pursing impact cases involving issues
affecting the Latino community. As an example, the witness described an instance in which
CRLA Management was uninterested in a mobile home park case impacting residents in three
different mobile home parks owned by a single corporation until DLAT Rice learned that one park
contained predominantly Hispanic residents, which meant there was a language issue instead of
just an older Americans issue. The witness explained that the case originally came to the
Modesto Seniors Unit because many of the clients were Seniors. The witness stated that there
were no Hispanic clients at first; only Seniors came into the Modesto Office seeking assistance.
The witness stated that CRLA learned from the Seniors clients who sought assistance that one
park is mostly Hispanic.

The witness stated that the original attorney handling the case left and another took over. The
witness further indicated that DLAT Rice directed the new attorney to work the case under one
senior client and to keep the case open so that CRLA could find Hispanic clients. The witness
also stated that at the time of the witness’ interview the new attorney was looking for co-counsel
in the case because some of the clients are ineligible for CRLA services.
16
  The Comm. Concerning Cmty. Improvement v. City of Modesto, No. CIV-F-04-6121 REC DBL
(E.D. Cal. Filed Aug. 18, 2004) [hereinafter CCC v. Modesto].


                                                                                                8
expressed interest in pursuing the issue and, in any event, CRLA did not have a
qualified client to pursue the issue.

The CS stated that in the Fall of 2003 the Lawyers’ Committee for Civil Rights
(LCCR) and their co-counsel, the San Francisco firm Heller Ehrman, White &
McAuliffe, contacted CRLA Modesto and asked for assistance with “leg work” in
connection with possible disparate services litigation. Although earlier, CRLA
management had not expressed interest in the disparate services issue, the CS
indicated that CRLA management became interested once LCCR became
involved in the issue. In fact, according to the CS, management did not want
LCCR litigating the disparate services issue in CRLA’s service area without also
being involved. Email traffic obtained by the OIG indicates that DLAT Rice
plainly stated in the Spring of 2004 “…I don’t [want] the Lawyer’s Committee
litigating in our service area on these issues without our participation.”

According to the CS, though CRLA did not have a client with an interest in the
case, a statement of facts from a client, a retainer agreement with a client or a
co-counsel agreement with LCCR and/or Heller Ehrman, the CS stated that
DLATs Jacobs and Rice and several members of the Modesto Office staff,
including the CS, spent a significant amount of time performing work in
furtherance of the litigation. Also during the pre-filing phase the CS informed
DLATs Jacobs and Rice several times that working on the CCC v. Modesto case
was consuming a great deal of her time, taking away from her ability to attend to
her significant number of “services cases,” that she did not want to continue
working on the case, and that she did not think involvement in the case was
consistent with the LSC regulations.17

The CS described CRLA’s pre-filing work performed in furtherance of the CCC v.
Modesto case including that of DLAT Rice, DLAT Jacobs and staff in the
Modesto Office, the majority of which occurred from the Spring of 2004 through
the filing of the case in August 2004. According to the CS, DLATs Rice and
Jacobs participated in strategy and planning conference calls and emails with
LCCR and Heller Ehrman, performed research and, in the case of DLAT Rice,
attained CRLA’s status as co-counsel in the litigation though CRLA did not have

17
   The CS provided two examples of how time spent on impact work affects the critical needs of
individual clients. First, the CS told of a Greek client who lost her house due to fraud and
malfeasance by a title company. This client, finding no one to assist her, had filed her own suit.
She came to CRLA in what the CS described as desperate circumstances, not even having
working bathroom facilities in her home. Next, the CS described the circumstances of a second
client, also requesting assistance in keeping her home. According to the CS, this client was
being wrongfully evicted from a mobile home she had paid for in full. When she came into the
CRLA office wearing a swastika on a necklace some CRLA staff, repulsed by this, did not want to
assist her; she was given cursory assistance and was left to represent herself (pro se) at trial.
The CS describes meeting this client when she returned to CRLA after losing her home, now
requesting assistance with an affirmative action against the mobile home park owner. Although
needing extended service (or full representation) from CRLA, the press of the CCC v. Modesto
case and other impact work allowed the CS to provide only limited assistance to these clients
proceeding pro se.


                                                                                                 9
a vested client. The CS and six others in the Modesto Office spent time
“investigat[ing] and research[ing]; review[ing] past CRLA annexation work, dating
back to 1989; perform[ing] time-intensive fact checking of the assertions
contained in draft(s) of the complaint; perform[ing] legal research; assist[ing]
LCCR in identifying community groups to meet with on case related issues and
attend[ing] meetings to discuss with those groups possible involvement in the
litigation; and tr[ying] to find a client for CRLA to represent in the case.”
According the the CS, CRLA essentially served as local counsel in the case but,
with the exception of the search for a client, the Modesto staff performed this
work on behalf of plaintiffs already represented by other counsel in the case.

The CS explained that CRLA procedures require attorneys to file Litigation Action
Plans (LAP), to be approved by CRLA’s DLATs and Deputy Director Luis
Jamarillo,18 prior to filing a case. At the direction of DLAT Rice the CS prepared
an LAP for a former CRLA client who had already been rejected as a plaintiff by
LCCR and Heller Ehrman, and later that same day the DLATs approved the LAP.
The CS estimated that from the time that CRLA received a copy of a draft
complaint on July 14, 2004, until the complaint was filed on August 18, 2004, she
alone spent five hours a day working on the case.19 This does not account for
the time spent before July 14, 2004, or for time spent by other CRLA staff or the
DLATs.

The CS stated that due to pressure from CRLA management the Modesto Office
staff expended a significant amount of time and energy trying to locate an
appropriate and eligible client for CRLA to represent in the litigation. According
to the CS, in an effort to locate such a client, she and other Modesto Office staff
“attempted to contact former CRLA clients represented in the old CRLA
annexation work, [ ] discussed with counsel in the litigation (e.g., LCCR; Heller
Ehrman) whether they could refer someone to [CRLA], and [ ] contacted
individuals then represented by other counsel in the case (with counsel’s
permission).” The CS describes the search for a client as follows:

       In June 2004, we thought we had identified a client appropriate for
       the litigation but LCCR did not want this person as a plaintiff (the
       person may have lived in the wrong neighborhood or LCCR may
       already have had a representative from that neighborhood as a
       client in the litigation). We later thought we had identified another
       appropriate client but this client was rejected because we
       discovered that he did not live in the correct neighborhood; he was

18
   Mr. Jaramillo was recently on a leave of absence from CRLA and working at LSC headquarters
as Special Counsel to the LSC President. He was on a three-month contract, starting in
November 2005, which during the OIG investigation, was extended through May 8, 2006. LSC
management indicated that Mr. Jaramillo was “walled off” from the CRLA matter and did not have
any involvement in discussions concerning the OIG investigation during his tenure as Special
Counsel to the LSC President.
19
   Five hours per business day between July 14 and August 18 amounts to approximately 130
attorney hours, or more than three full work weeks.


                                                                                           10
       merely a representative of a group of neighborhood residents. In
       August 2004, on the eve of litigation, it appeared that only one of
       the individuals already slated to be plaintiffs in the litigation (and
       already represented by other pro-bono counsel) would qualify for
       CRLA services. [A Community Worker] went to the client’s house
       for the purpose of completing the intake but returned without
       complete information and reported that she did not believe the
       client was being truthful. [ ] I subsequently went to this person’s
       house for the purpose of completing the intake and at that time we
       became aware of information which indicated this person was
       unlikely to be financially eligible. When I brought this to the
       attention of DLATs Rice and Jacobs and questioned the
       prospective client’s credibility, I was chastised for engaging in
       further inquiry as to eligibility and told that I should base the
       eligibility determination solely on the information provided by the
       client. This individual therefore remained our client for the itigation
       at that time. Ultimately, we found another client eligible for CRLA
       representation. Again there were problems as I was informed this
       client was about to experience a material change of circumstances.
       I expressed to DLATs Jacobs and Rice and Executive Director
       Jose Padilla that the client would not qualify in the future without an
       eligibility waiver. I further expressed that it appeared an eligibility
       waiver would not be appropriate under LSC regulation 45 CFR Part
       1611 and CRLA’s case handling manual guidelines because other
       counsel was available to this client at no cost. I am informed and
       believe a waiver request was submitted to Mr. Padilla and was
       granted.

The CS stated that during the search for an eligible client for CRLA to represent
in the litigation she recorded the time she spent working on the case in different
client files. She also stated that prior to having a client, she charged the time she
spent working on the CCC v. Modesto case to a former CRLA client transferred
to her from another staff attorney in 2002; this client’s case was left open for the
purpose of charging miscellaneous work related to housing issues and for which
advocates did not have a specific client (all purpose housing client). According to
the CS, she never met with the client and had only limited contact with the client
by telephone and letter. She stated that she charged time to a new file opened
on behalf of a separate former CRLA client to whom CRLA had earlier provided
brief services regarding the disparate provision of municipal services. The CS
stated that client was later rejected as a plaintiff in the litigation. The CS further
stated that she charged time to another client who already had an open file with
CRLA for an unrelated issue.

The OIG substantiated the CS’s allegations that CRLA undertook work in
connection with the case, CCC v. Modesto, without having a client involved in the
case. The OIG also substantiated that CRLA staff expended significant time and



                                                                                   11
energy trying to find a client for CRLA to represent in connection with the case,
including soliciting former CRLA clients and individuals who were already
represented by other counsel, in violation of the LSC restriction prohibiting
solicitation of clients.20     Finally, the OIG confirmed that CRLA senior
management was aware of, and at times, directed this activity.

            b. The McBride Case Provides an Example of CRLA’s Participation in
               Impact Litigation Originating in a Branch Office Other Than
               Modesto.

A separate witness confirmed the CS’s allegation that CRLA management
pressures staff to take impact cases, affecting the amount of individual client
representation (service cases) CRLA attorneys can provide. The witness also
stated that it is not unusual for CRLA to solicit clients for cases in which CRLA
wants to be involved but in which an eligible client had not sought assistance
from CRLA. The witness described the general practice of solicitation she
witnessed. She stated that CRLA management sometimes learned of an issue in
which management wanted CRLA to become involved when individuals ineligible
for service contacted CRLA for service. In order for CRLA to become involved,
CRLA management would direct the office to send staff out to find an eligible
client for CRLA to represent in the matter. Management also would themselves,
or would direct staff, shop the case around to try to find other counsel to
represent the ineligible persons (and to act as co-counsel once CRLA found a
client). According to this witness, similar steps would be taken when CRLA
simply learned of an issue it wanted to litigate, though no client had requested
service.21

When asked to provide an example of this practice, the witness described a case
implicating the same concerns raised by CRLA’s involvement in the CCC v.
Modesto case, the McBride case. McBride is an education discrimination case
filed against the Modesto City Schools. CRLA sent a demand letter to the
schools insisting that the schools allow a group of eighth graders to graduate
despite not passing a mandatory test on the Constitution given only in English.
When the schools did not give in to the demand letter, CRLA filed for a
Temporary Restraining Order (TRO) that would affect all similarly situated
students within the Modesto School District and within the jurisdiction of the
presiding court. The OIG was unable to obtain details as extensive as those
obtained for the CCC v. Modesto case; however, the McBride case illustrates the




20
   The OIG thus far has been unable to ascertain how much time was spent. Although CRLA
states otherwise, the time records associated with the case that CRLA provided appear to be
incomplete based on information obtained from the CS. This may be due to the practices CRLA
is alleged to use when working without a client, such as charging time to an all-purpose client or
charging time to a matter rather than a client’s case. See discussion supra Part .
21
   See discussion of CRLA’s involvement in the Ceres case supra note 15.


                                                                                              12
same working without a client and solicitation practices by CRLA as does the
former case.22

CRLA’s Modesto Office first learned of the matter that later became the McBride
case when a private attorney contacted CRLA to take the education case.
Clients sought assistance from the private attorney, but they could not pay her.
Though she was unsure whether the clients were eligible for LSC services, the
private attorney sent the clients to CRLA and told CRLA that they should be
involved in the case.

A Modesto Office attorney sent DLAT Rice an email about the matter who, in
turn, contacted former DLAT Jack Daniel, currently the Directing Attorney of
CRLA’s Fresno Office and head of CRLA’s Education Task Force. Rice learned
that Daniel was already co-counseling the case in Fresno with Protection And
Advocacy Inc. (P&A), apparently without a client.

Daniel and P&A performed substantial work on the case prior Daniel’s acquisition
of a client in the case. An internal communication indicates that before June 6,
2005 Daniel and P&A sent the demand letter and performed the research and
writing necessary to file a complaint in court and request a TRO. Drafted
documents appear to include declarations, guardian ad litems, a civil cover
sheet, summons and acknowledgements, the TRO cover sheet, the complaint,
and the proposed order.

On June 6, 2005, two days before the complaint was filed, Daniel asked
employees in the Modesto Office to help him find a client on whose behalf he
could file the complaint. Ignacio Musina, the basic field Community Worker in the
Modesto Office agreed to assist Daniel. Daniel instructed Musina to go out and
find a client(s) for the litigation. Daniel explained the case the to the Modesto
Office staff, described the ideal plaintiff and then requested assistance in
soliciting a “clean” client. An internal communication from Daniel requests that
“…someone from Modesto call folks on this list and see if 1. they want to be
plaintiffs 2. if so, find out the following: is student barred from graduating[,]
why?[,] that is was it slowly [sic] because they flunked the constitution test or
were there other things going on[,] is student proficient in English?” The internal
communication also says, “I know [t]his is last minute and apology – of [sic] you
can’t help, I understand – just let me know and we will get folks from Fresno to
do this. I appreciate any help I can get.”



22
   A press release obtained by the OIG appears to indicate that CRLA’s involvement in the
McBride case is similar to, if not in conjunction with, a more high profile effort to change the
administration of exams by California schools in English. The press release indicates that CRLA
represented parents and students intervening in a “Landmark Lawsuit Regarding Unfair Testing
of English Learners in California Public Schools.” Statement of California Rural Legal Assistance,
“Landmark Lawsuit Regarding Unfair Testing of English Learners in California Public Schools,”
June 7, 2005.


                                                                                              13
Internal communications indicate that Musina interviewed all clients already
represented in the case by P&A. Of the P&A clients contacted, the one client the
Modesto Office determined to be eligible required an income eligibility waiver
from CRLA Executive Director Padilla. During a DLAT meeting (at which Deputy
Director Jaramillo also was present) Padilla approved the income eligibility
waiver for the attorney working the case over the telephone.

The OIG substantiated the witness’s account of CRLA’s involvement in the
McBride case. The OIG obtained supporting internal communications from
Daniel to the Modesto Office.   Musina confirmed that he worked on the case
                           23
with an attorney from P&A. He stated that he got a list of names of clients with
phone numbers to follow-up on.24 Documents the OIG received from CRLA also
support this recount of how CRLA came to be involved in this case.

            c. CRLA’s Desire to Participate in Impact Litigation Causes CRLA to
               Violate LSC Restrictions.

Again, litigating a case that may impact a large segment of the population is not
automatically problematic. However, with a grantee so focused on attacking
issues, and not on providing services to clients seeking assistance, an
institutional climate may arise in which the grantee expends its resources on
issues in which it does not have an interested client, and must, therefore solicit
appropriate clients for representation in the case and become involved in
restricted cases.

                 i.   CRLA Performs Work Without a Client.

It may be somewhat surprising that the question of whether CRLA may perform
work on a case prior to it having a client in the case does not present a simple
answer. Although on its face such efforts appear inconsistent with the premise
on which funding is supplied, that it will be used to provide legal assistance to
eligible clients, LSC provides no explicit requirement that litigation work be
performed only when a grantee has an identifiable client.25

23
     Memorandum of Interview with Ignacio Musina, Community Worker, CRLA Modesto
(December 21, 2005).
24
   Id.
25
    In addition to the overall purpose of establishing LSC, several restrictions and requirements
touch on the notion. See LSC Act, supra note 4, § 2996b(a) (discussing overall purpose: LSC
established “for the purpose of providing financial support for legal assistance in noncriminal
proceedings or matters to persons financially unable to afford legal assistance); see also id. at §
2996 (discussing congressional findings and declaration of purpose). See LSC Act, supra note 4,
§ 2996f(a)(2), LSC Regulations, supra note 6, Part 1611 (discussing financial eligibility: before
providing legal assistance, grantees must determine that an individual is financially eligible for
services); 1996 Appropriations Act, supra note 5, § 504(a)(9), LSC Act, supra note 4, §
2996f(a)(2)(C)(1), and LSC’s Regulations, supra note 6, Part 1620 (discussing priorities: grantees
may devote time and resources only to those cases or matters the grantee has determined to be
within its priorities after appraising the needs of its eligible client population); 1996 Appropriations
Act, supra note 5, § 504(a)(10)(A) and LSC Regulations, supra note 6, Part 1635 (discussing


                                                                                                    14
Leaving aside the question of whether CRLA should have performed work
without a client, in doing so CRLA’s performance of work on behalf of those
already represented by other counsel certainly appears problematic. In the CCC
v. Modesto case, these individuals were likely not eligible for LSC funded service,
given the apparent difficulty CRLA had in attempting to find one to qualify for
service. The work could be viewed as subsidizing the activities of other
organizations in violation of Part 1610 of LSC Regulations; and the work raises
concerns regarding the efficient and effective use of the scarce resources
available to provide services to clients.

CRLA undertook work in connection with the CCC v. Modesto case, although it
did not have a client in the litigation. In addition to the CS’s own statement to this
effect, the CS provided documentation in the form of email communications
supporting the efforts CRLA performed in furtherance of the litigation. These
emails support the CS account of CRLA’s efforts in relation to the litigation.
From personal knowledge, a second witness, though admittedly ignorant about
much of CRLA’s earliest efforts, corroborated later portions of the CS’s account.
Finally, records received from CRLA are consistent with the CS’s statement of
events.

The emails further demonstrate that most of the CCC v. Modesto work was done
with the full knowledge of CRLA senior management. Two of CRLA’s DLATs
actively participated in researching issues and drafting the complaint. Later
versions of the complaint were also copied to the Executive Director and Deputy
Executive Director. The DLATs asked for and received updates on the status of
the case including that CRLA staff was assisting in locating community
organizations for co-counsel to represent; that CRLA staff was interviewing
persons represented by other counsel in the case for factual investigation on
behalf of other counsel; that CRLA staff was organizing and participating in
meetings with co-counsel and community groups. The emails show that DLATs
instructed the CS to continue supporting the other firms working on the case
despite not having a client and to draft an LAP for the case using a former client,
which CRLA’s DLATs and Deputy Executive Director approved only hours after



timekeeping: grantees must maintain records of time spent on each case, matter or supporting
activity in which the grantee is engaged); 1996 Appropriations Act, supra note 5, § 504(a)(8) and
LSC Regulations, supra note 6, Part 1636 (discussing client identity and statement of facts:
grantee must identify its client in complaints filed or in pre-complaint negotiations and must
maintain a statement of facts forming the basis for the complaint); LSC Regulations, supra note 6,
Part 1611 (discussing retainer agreement: grantees must execute retainer agreements with
clients in extended service cases, although not where only brief service or only advice is given);
1996 Appropriations Act, supra note 5, § 504(a)(1)-(6) and LSC Regulations, supra note 6, Part
1612 (discussing lobbying prohibited); LSC Act, supra note 4, §§ 2996f(a)(6), (b)(4), (b)(6), &
(b)(7) and LSC Regulations, supra note 6, Parts 1608 & 1612 (discussing political activity,
organizing activity and demonstrations limited).



                                                                                              15
receiving it. Finally, the emails show the request for and receipt of an income
eligibility waiver from CRLA’s Executive Director Jose Padilla.

With regard to the McBride case, internal communications indicate that Fresno
Directing Attorney Daniel had already performed all of the necessary pre-filing
work when he contacted the Modesto Office for assistance in finding a client on
whose behalf to file the case. Interestingly, CRLA timekeeping records for the
case indicate that Daniel spent 64.4 hours working under client file number 05-
0199427 and charged against LSC funds. The Modesto client’s intake appears
to be dated May 16, 2005, well before Daniel contacted the Modesto Office for
assistance in soliciting a client. If Daniel already had a client, why did he need
the Modesto Office to find a client for him? If Daniel could not file the case under
the name of client number 05-0199427, why did Daniel charge his time to this
client?26 CRLA filed the claim two days following Daniel’s initial contact with the
Modesto Office for assistance. Daniel’s timekeeping indicates he that he did not
spend any time on the case on June 6th or 7th, though the email traffic indicates
otherwise. According to Daniel’s timekeeping records he spent only six hours on
the case after contacting the Modesto Office, all of which occurred on June 8th,
2005, 4.5 of which he spent traveling to the hearing and 1.5 of which he spent at
the hearing. Two attorneys within the Modesto office spent a total of 22.25 hours
on the case, all of which occurred after Daniel contacted the Modesto Office.
CRLA provided no timekeeping for Musina, the Modesto Office Community
Worker who clearly spent time searching for a client.

The performance of the pre-filing work in conjunction with other counsel in CCC
v. Modesto and again in McBride, in the absence of a client raises concerns as to
the potential subsidization of another organization that engages in restricted
activities and represents potentially ineligible clients. 27 Additionally, absent a
client, the work raises concerns regarding the efficient and effective use of the
scarce resources available to provide services to clients.              Finally, the
timekeeping questions raise issues as to the accuracy of CRLA’s timekeeping
practices and, therefore, the integrity of a basic accountability tool.




26
   See discussion of LSC’s timekeeping requirements in the introductory Note of this report, supra
pp. iii-iv. Also of interest, the client number under which Daniel kept his time does not appear in
the database provided by CRLA containing all CRLA client numbers for clients from January 1,
2003 to October 31, 2005.
27
   Other counsel, including P&A and LCCR, engage in work that LSC grantees are prohibited
from undertaking, such as class action cases and legislative advocacy. LSC grantees may
associate with other organizations that engage in such prohibited activities, but may not use LSC
funds to subsidize such organizations. See LSC Regulations, supra note 6, § 1610.8(a)(2). For
example, Daniel timekeeping records indicate that he used LSC funds to support his work on the
McBride case when CRLA did not have an interested client. This appears to violate the
prohibition on subsidizing an organization engaging in restricted activities; Id.


                                                                                               16
                  ii. CRLA Solicits Clients.

CRLA’s activity in furtherance of finding a client for CRLA to represent in
connection with CCC v. Modesto and McBride clearly violates the restriction in
LSC’s 1996 appropriations act prohibiting grantee attorneys from “accept[ing]
employment resulting from in-person unsolicited advice to a nonattorney that
such nonattorney should obtain counsel or take legal action.”28

The McBride case presents an obvious instance of solicitation. In addition to a
witness’ recount of how CRLA became involved in McBride, email
communications clearly show a Directing Attorney instructing Modesto staff
members to solicit clients for a case in which he had already performed the
necessary pre-litigation work. Internal communications indicate that a Modesto
Community Worker did, in fact, solicit a client for CRLA to represent in the
litigation. This instance also indicates that this practice is not isolated within the
Modesto Office.

The OIG substantiated that CRLA staff expended significant time and energy
trying to find a client for CRLA to represent in connection with the CCC v.
Modesto case. Information received from other staff and copies of email
communications support the CS’s statement to this effect. These sources
support the following solicitation activities: CRLA contacted former CRLA clients
or current clients being represented on other matters to determine whether they
would be interested in pursuing the litigation; CRLA discussed with other counsel
in the litigation whether they could refer one of their clients to CRLA; and CRLA
contacted individuals then represented by other counsel in the case (with
counsel’s permission).

CRLA expended significant time trying to qualify these individuals as eligible for
CRLA-service and was only able to qualify a single client on the eve of case
filing. Staff spent time pursuing one prospective client who was not eager to
speak with CRLA because the individual was already represented by counsel
and had been advised by that counsel not to sign anything from anyone else.
CRLA requested that the counsel contact the client and assure the client that the
client could speak to CRLA. CRLA staff expended time attempting to verify the
income of this prospective client, whose credibility was questioned due to the fact
that information provided had proved inaccurate. The client CRLA ultimately
obtained originally appeared to be ineligible. CRLA staff spent time tracking
down this person to gain additional information that might allow the person to
qualify for CRLA services. On the evening before the case was filed, CRLA
concluded that this person was eligible for services with an eligibility waiver, as
his income was scheduled to change in approximately two weeks time.



28
     Pub. L. 104-134, § 504(18), see also LSC Regulations, supra note 6, Part 1638.


                                                                                      17
Internal communications further demonstrate that most of this work was done
with the full knowledge of, and at times under the direction of CRLA senior
management, as does the statement of a second witness. The emails
substantiate that one of the DLATs involved in the case knew on July 16, 2004
that CRLA staff was actively seeking a client to represent in connection with the
case. On August 3, 2004, CRLA staff asked for guidance in light of the lack of a
client and the DLAT asked the staff member if there was not some “housing
element comment client” available to support factual investigation of the case.29
Internal communications show a flurry of activity in the days leading up to filing,
with CRLA attempting to find a client among the plaintiffs already represented by
other counsel. A DLAT directed staff to review the other plaintiffs in the case
(persons already represented by co-counsel) and to try to qualify them as CRLA
clients, that is, conduct an intake and obtain a statement of facts and retainer
agreement from them. When the CS informed a DLAT of the questionable
credibility of the above referenced prospective client’s eligibility information, the
DLAT asked the CS whether the client qualified based on the information
previously provided and told her that CRLA should take their clients at face value
and that inquiries attempting to verify eligibility are not justified absent hard
evidence. When a client finally was signed, on the eve of filing the case, the CS
advised a DLAT that this client would become ineligible for service two weeks
hence; the DLAT directed the CS to submit an income eligibility waiver to the
CRLA Executive Director so that CRLA could continue the representation.

These two cases illustrate CRLA’s propensity for involvement in certain cases
regardless of whether or not CRLA has an interested client. In fact, one
knowledgeable witness stated that CRLA becomes involved in cases without a
client and, therefore, must solicit a client(s), most commonly because CRLA
becomes interested in an issue and chooses to pursue involvement in the issue
via lawsuit despite not having an interested client and less because outside
counsel contacts CRLA to become involved, like the Modesto and McBride
cases. The two cases also illustrate that this practice of desiring to be involved in
a case, working in furtherance of the case despite the lack of a client and then
soliciting an appropriate client for the litigation is neither a simple anomaly,
attributable to one rogue attorney or rogue branch office, nor an occurrence of
which CRLA’s upper management was ignorant.

              iii. CRLA Inappropriately Worked a Fee Generating Case.

The CCC v. Modesto case is a fee generating case for LSC purposes, to which
none of the enumerated exceptions making participation permissible apply.
CRLA’s involvement in the case, therefore, violates LSC Regulations.



29
  This supports the CS’s assertion that CRLA maintains “all-purpose” clients in
various issue areas in order to charge time worked on cases in which CRLA has
no client. See supra p. 11.


                                                                                  18
Part 1609 of the LSC Regulations implements Section 1007(b) (1) of the LSC Act
and generally prohibits grantees from providing legal assistance in fee generating
cases. LSC’s stated purpose for the restriction is “[t]o ensure that recipients do
not use scarce legal services resources when private attorneys are available to
provide effective representation.”30 Fee generating cases are defined as “any
case or matter, which, if undertaken on behalf of an eligible client by an attorney
in private practice, reasonably may be expected to result in a fee for legal
services from an award to a client, from public funds or from the opposing
party.”31 Section 1609.3 provides exceptions limited to cases in which no private
attorney or lawyer referral service will accept the case or emergency cases in
which time does not permit referral.32

An internal communication from DLAT Rice indicates that “from CRLA’s
perspective … this is a non-fee generating case as [the co-counsels] are
eliminating all requests for monetary relief and it is injunctive relief only…” The
CCC v. Modesto co-counsel agreement between the myriad of private and not-
for-profit law firms indicates that CRLA will not request attorneys’ fees in the
case.

Neither of CRLA’s attempts to separate itself from the attorneys’ fees that the
CCC v. Modesto case could reasonably be expected to generate is relevant to
the determination of whether the case is fee generating for LSC purposes. That
CRLA’s co-counsel is opting not to request monetary relief, hence will not collect
a contingency fee from the plaintiffs, does not render the case one in which
monetary relief is not possible and from which an attorney in private practice
reasonably may be expected to collect a fee. In fact, CRLA’s statement “[the co-
counsels] are eliminating all requests for monetary relief” suggests that monetary
relief may have been available in this case. Similarly, a request for attorneys’
fees would not be included in a prayer for relief unless the requesting party had a
basis for asserting that the party was entitled to such fees upon a successful
outcome in the case. The complaint filed on August 18, 2004 includes a claim for
attorneys’ fees by the other firms working the case,33 which signifies that this
case is, indeed, a fee generating case. Finally, as evidenced by the fact all
clients were previously represented by other counsel, including private law firms,
long before CRLA became involved in the case, neither exception can
reasonably apply to this case. For LSC purposes, the CCC v. Modesto case is a
fee generating case and CRLA’s involvement in the case violates Part 1609 of
LSC Regulations.




30
   LSC Regulations, supra note 6, § 1609.1.
31
   LSC Regulations, supra note 6, § 1609.2 (a).
32
   LSC Regulations, supra note 6, § 1609.3.
33
   See CCC v. Modesto, supra, note 16.


                                                                                19
                  iv. CRLA Inappropriately Requested Attorneys Fees.

Part 1642 of the LSC Regulations prohibits grantees from “claim[ing], or
collect[ing] and retain[ing of] attorneys’ fees”34 and provides no exceptions. As
indicated in the previous section, the prayer for relief in CCC v. Modesto includes
a claim for attorneys’ fees. Again, CLRA’s attempt to disassociate itself from the
request for attorneys’ fees by co-counsel, via the co-counsel agreement is
irrelevant. The claim in the CCC v. Modesto case indicates neither that CRLA is
not requesting any attorneys’ fees, nor that no fees collected will go to CRLA.
CCC v. Modesto includes a simple request for attorneys’ fees and CRLA is
counsel of record in the case. CRLA’s claim for attorneys’ fees is a clear
violation of the restriction.

B.        CRLA Officials Associate the Grantee with Political Activities.

Unrelated to the CCC v. Modesto or McBride cases, as a result of independent
research, the OIG found two instances in which CRLA senior staff appears to be
engaged in prohibited political activities. LSC Regulation 1608.4 (a) clearly
states “[n]o employee shall intentionally identify the Corporation or a recipient
with any partisan or nonpartisan political activity, or with the campaign of any
candidate for public or party office.”35 Specifically, CRLA’s Executive Director,
Jose Padilla, is listed as an endorser of “The World Can’t Wait: Drive Out the
Bush Regime.” Likewise, DLAT Ilene Jacobs co-hosted a fundraiser for 2004
Presidential Candidate John Kerry via “Fair Housing Advocates for Kerry.
Certainly both Padilla and Jacobs are free to express their own private political
beliefs on their personal time. However, in both instances the CRLA employees
appear to have inappropriately identified themselves as “of CRLA,” thereby
identifying CRLA with such political activities in violation of Section 1608.4 (a) of
LSC’s regulations.




34
     LSC Regulations, supra note 6, Part 1642.
35
     LSC Regulations, supra note 6, § 1608.4 (a).


                                                                                  20
                           III. Areas of Continuing Concern

For other allegations and issues arising from our investigation, the OIG requires
additional information in order to conclude whether the evidence supports a
finding of noncompliance. These issues are sufficiently developed to raise the
serious concerns discussed herein.

A. CRLA Engages in Other Activities That Tend to Support the Claim that CRLA
   Prioritizes Impact Work Over Service Work.

Other common practices at CRLA illustrate the grantee’s propensity for impact
type work. Some activities include lobbying, monitoring, filing amicus briefs and
filing cases on behalf of the “general public” under California’s Unfair Competition
Law. Though many of these activities raise serious concerns, the OIG has not
yet developed sufficient evidence to support definitive findings regarding CRLA’s
possible violation of federal law as a result of engaging in the following activities.

        1. CRLA Engages in Activities that May Violate Restrictions Prohibiting
           Lobbying.

The OIG found possible prohibited lobbying activities, including legislative and
rulemaking activities in violation of LSC Regulations Part 1612 and Section
504(a)(1)-(6)) of the 1996 Appropriation Act (1996 Appropriation), incorporated
by reference in LSC’s current appropriation. LSC’s 1996 Appropriation prohibits
grantees from “attempt[ing] to influence the issuance, amendment, or revocation
of any executive order, regulation, or other statement of general applicability and
future effect by any Federal, State, or local agency”36 and “attempt[ing] to
influence the passage or defeat of any legislation, constitutional amendment,
referendum, initiative or any similar procedure,”37 at the Federal, State or Local
level.    LSC implemented this prohibition in Part 1612 of its regulations. Part
1612 generally prohibits lobbying contact with legislative or administrative bodies
but, in accordance with the 1996 Appropriations Act, allows limited contact with
legislative and administrative bodies at the federal, state and local level in
response to an unsolicited written request for comment and public rulemakings
and using non-LSC funds.38

As stated, the CRLA activities reviewed in this section may violate LSC’s
lobbying restrictions. In applying LSC’s implementing regulation, Part 1612, to
CRLA’s activities we find the regulation provides less functional guidance than
may be needed; additional guidance to grantees may be worth considering.
36
    1996 Appropriations Act, supra note 5, § 504 (a) (2).
37
   Id. at § 504 (a) (4).
38
    Id. at § 504 (e), LSC Regulations, supra note 6, § 1612.6, also referred to as the Cohen-
Bumpers Amendment. LSC also requires grantees to “maintain separate records documenting
the expenditure of non-LSC funds for legislative an rulemaking activities permitted by § 1612.6.”
LSC Regulations, supra note 6, § 1612.10 (b). This separate timekeeping is often referred to as
“Cohen-Bumpers” time.


                                                                                             21
               a. CRLA’s Comments on the Housing Elements May Be Considered
                  Lobbying.

The CS described a CRLA wide project called the Housing Elements as an
example of CRLA management’s desire for staff to engage in “impact work.” The
CS explained that Housing Elements refers to the housing needs portion of a
state mandate that all cities and counties adopt a comprehensive long-term
physical development plan for all economic segments of the community within
their respective jurisdictions. The CS stated that CRLA management required all
CRLA offices to participate in the revision of the Housing Element in their
respective service areas. According to the CS, all CRLA offices were instructed
to comment on proposed revisions, evaluate each jurisdiction’s compliance with
the law and assess the litigation prospects in each jurisdiction.

The CS stated that DLAT Jacobs, the DLAT responsible for housing issues,
oversaw this project CRLA wide. The CS agreed to take the project in the
Modesto Office. According to the CS she attended many community meetings,
planning commission hearings, commented on housing element revisions and
gave an oral presentation at a planning commission meeting. The CS stated that
at least four other advocates from the Modesto Office participated in the Housing
Elements project and that she supervised two interns who worked almost
exclusively on the project. According to the CS, she presented comments to the
planning commission as a representative of CRLA and not on behalf of any
client. The CS stated that she charged her time spent working on Housing
Elements to the same “all purpose” housing client to whom she charged her
clientless time while working on the CCC v. Modesto case. According to the CS,
this was the common practice for all CRLA offices.

The OIG substantiated that CRLA staff participated in the revision of the Housing
Elements. The CS provided specific times and dates of some of her Housing
Elements activities. Internal communications indicate that, indeed, the CS
submitted written and oral comments to the Housing Elements planning
commission in Modesto and support the CS’s statement as to interns working on
the project. Language in the communications indicates that the planning
commission changed language in a draft of the Housing Element as a result of
her comments. DLAT Jacobs commended the CS for the work in a separate
documented communication.

Additionally, the aforementioned Housing Elements Priorities Memo39 states
“CRLA housing advocates in all field offices continue to analyze housing
development proposals for consistency with local housing elements and general
plans, responding to written requests for comment upon development
proposals…” A Summer 2003 AWHP40 Farmworker Housing Survey Report,

39
     See supra note 12.
40
     Agricultural Worker Health Project.


                                                                              22
also presented at CRLA’s 2003 Asilomar Priorities Setting Conference also refers
to CRLA’s evaluation of general Housing Elements plans.41 The May 2003 Six
Month Work Plans for the Modesto Office employees indicate the “[t]he Modesto
office has made a commitment to become familiarized with Housing Elements
law with a goal of long-term monitoring and enforcement” and that multiple
Modesto Office employees engaged in Housing Elements work. CRLA’s 2004
application for LSC funding also states that it intends to “comment on housing
elements, consolidated plans and analysis of impediments to fair housing.”42

In an effort to determine the permissibility of CRLA’s Housing Elements work, the
OIG evaluated CRLA’s activities, obtained from CRLA documents necessary to
determine whether CRLA used LSC funds to undertake the activity and whether
the comments were provided in response to a request for comment as allowed
by the Cohen-Bumpers amendment.43 Clearly the activities of the CS fall within
the realm of activities covered by Part 1612 of LSC Regulations. Not only did the
CS “attempt to influence the issuance, amendment, or revocation of …[a]
statement of general applicability and future effect by [a] local agency;” her
actions succeeded in causing the planning commission to change language in a
draft of the Housing Elements. The CS’s activities do not appear to be exclusive
to her or the Modesto Office and CRLA management appears to coordinate and
support such activities.

In response to the OIG’s request for documents regarding the Housing Elements
work, CRLA responded that it does “not consider comments on housing elements
to be legislative advocacy nor [ ] responses to notice and rulemaking.” CRLA
considers the commenting to be “FHIP work”44 and requires neither time to be
kept as Cohen Bumpers IOLTA45 nor a written invitation from a legislative or
administrative official. In at least two instances, though, CRLA reported
commenting to state and local officials regarding Housing Elements to LSC
pursuant to Section 1612.10 (c) of LSC Regulations,46 which requires grantees to
submit semi-annual reports describing their Cohen-Bumpers activities.47

CRLA sets forth three reasons for not considering commenting on Housing
Elements as activity covered by Part 1612, but considering them to be “in the
nature of exhaustion of administrative remedies.” First, CRLA asserts that a writ
41
   AWHP Farmworker Housing Survey Report, Summer 2003, pp. 6-7.
42
   CRLA Proposal Narrative for 2004 Grants Competition, p. 8.
43
    Under limited circumstances, section 504(e) permits grantees to use non-LSC funds to
“respond to a written request for information or testimony from a Federal, State or local agency,
legislative body or committee;” 1996 Appropriations Act, supra note 5.
44
   Fair Housing Initiatives Program is a U.S. Dept. of Housing and Urban Development program
that promotes fair housing laws and equal housing opportunity awareness.
45
   See explanation of “Cohen-Bumpers” supra note 38.
46
   LSC Regulations, supra note 6, § 1611.10 (c).
47
   CRLA Semi-Annual Report on Legislative and Rulemaking Activities Conducted Pursuant to 45
C.F.R. § 1612.10 (c), for January 1, 2004 to June 30, 2004, p. 6, and July 4, 2004 to December
31, 2004, p. 4. Additional entries may also be related to the Housing Elements but do not refer to
the activities as such.


                                                                                              23
petition cannot be sustained unless comments were previously submitted.
Second, CRLA explains that “unlike legislative acts, a governing jurisdiction
cannot legally adopt a housing element without first submitting a draft to the
Department of Housing and Community Development for compliance review.”
Third, according to CRLA “the governing statute requires each jurisdiction to take
public comment in order to be in compliance with state law.” Assuming that
CRLA’s first assertion is true, the argument seems irrelevant because grantees
are not permitted to “attempt to influence” regarding a statement of general
applicability for any reason. As to CRLA’s second claim, when and under what
conditions the governing jurisdiction can adopt a Housing Element is irrelevant to
the determination of whether or not CRLA “attempt[ed] to influence” that
governing body. Finally, CRLA’s third assertion appears to be arguing that
commenting on the Housing Elements may be “permissible under Section 1612.6
(e), “a public rule making proceeding.” Although CRLA does not consider it as
such, it is unclear whether such activity constitutes a “public rulemaking” for LSC
purposes. The OIG requires additional information as to the public comment
requirement. Regardless, CRLA’s use of LSC funds to engage in these activities
appears impermissible. CRLA failed to provide any information relating to the
Housing Elements work of the Modesto Office, however the timekeeping
documents for twenty other jurisdictions provided by CRLA indicate that LSC
funds were used to support Housing Elements work, despite CRLA’s claim to the
contrary.48

            b. CRLA Attempts to Influence Other State and Local Officials
               Regarding Legislation and Executive Branch Statements of General
               Applicability and Future Effect.

Information on CRLA’s lobbying activities is widespread and widely available.
CRLA’s activities are easily discoverable via internet search, in CRLA’s internal
documents and by admission from the grantee itself.

                i. Information Regarding CRLA’s Lobbying Activities is Readily
                   Available on the Internet.

A simple Internet search reveals CRLA’s involvement in other questionable
activities that may be violative of LSC’s prohibition on lobbying. The following
five items provide a smattering of samples of seemingly impermissible activities
in which CRLA engaged:




48
  In addition to commenting on revisions to the Housing Elements, some Housing Elements work
appears to be litigation related and on behalf of a particular client. This work could allowably be
charged against LSC funds. However, a significant amount of activity charged against LSC funds
appears to be general review and comment work. It is unclear whether that work is on behalf of a
particular client. The AWHP Farmworker Housing Survey Report, supra note 41, also indicates
that Housing Elements work has a litigation component.


                                                                                               24
•   Drafting of California Assembly Bill 712, introduced on February 17, 2005,
    regarding residential land use densities. The bill indicates that CRLA is the
    bills “Source” (drafter). CRLA maintains that they have no record of any
    involvement in the bill.
•   Opposing California Assembly Bill 2399. Governor’s Office Press Release –
    Wilson Admonishes Organized Labor and CRLA for Death of Bill Requiring
    Continuing Education for Farm Labor Contractors, April 22, 1998. The
    Governor’s Office issued the press release following the defeat of A.B. 2399
    (Poochigian). The press release states “Governor Pete Wilson today
    expressed exasperation with …California Rural Legal Assistance for their
    opposition to A.B. 2399 (Poochigian), a bill to require continuing education for
    California farm labor contractors.”
•   Commenting on the Parajo Valley Unified School District Board’s decision
    whether to contract with AdvancePath, which according to its website is a
    provider of alternative education for out-of-school youth or those at risk of
    dropping out. A CRLA attorney is represented as having “pulled his support
    for Advance Path…” and sending letters to officials addressing what happens
    with students when they leave their education. CRLA records indicate that
    the attorney spent 115.5 hours working on the comments, all of which was
    charged against LSC. At the time the OIG requested CRLA’s Report on
    Legislative and Rulemaking Activities Conducted Pursuant to 45 C.F.R. §
    1612.10 (c), the report for the second half of 2005 had not yet been filed. The
    OIG will request such documentation to determine whether CRLA received a
    request for comment from the school district.
•   An Analysis of the Labor Provisions of McCain/Kennedy. DLAT Rice
    coauthored an analysis of the immigration reform bill, “prepared to share [ ]
    perspectives with labor, immigrant advocacy organizations and other allies in
    the comprehensive immigration reform movement.” The paper was intended
    to “state clearly the shortcomings of this legislation so that it can be improved,
    if possible, and if compromise is necessary and desirable, the trade-offs are
    clearly understood by policy-makers, and above all, by ourselves.” The paper
    goes on to analyze provisions of the bill “of serious concern” and suggest
    alternatives. In response to the OIG’s request for documents, DLAT Hoerger
    claimed that his work on this project was on personal time and DLAT Rice
    charged 3.75 hours against LSC funds on the project and that CRLA was not
    representing a client in this work. DLAT Hoerger also stated that “[i]n [his]
    opinion, this activity is clearly LSC-appropriate.” In light of the stated goal of
    the analysis of the McCain/Kennedy immigration reform act, and its intended
    audience, e.g., “policymakers,” publishing of the analysis is likely a violation of
    the LSC restriction against lobbying.

              ii. CRLA Describes Potentially Impermissible Contact with State
                  and Local Regulatory Agencies.

On June 14, 2006 CRLA sent a letter attempting to explain to LSC Management
why the grantee should not be required to comply with the OIG’s “breath-


                                                                                    25
taking”49 request for CRLA employee time keeping records regarding
“‘comment(s) or testimony on California Department of Industrial Relations
current or proposed regulations or other policies,’”50 and other documents and
data. In the letter CRLA describes some of the communications and activities its
employees undertake in relation to state and local agency officials but that CRLA
does not consider to be covered by LSC’s prohibition on lobby activities. The
relevant portion of letter reads:

       Third example: OIG is requiring CRLA to produce, again on a
       program-wide basis, all records for a period exceeding three years
       concerning, ‘comment(s) or testimony on California Department of
       Industrial Relations current or proposed regulations or other
       policies.’ (Emphasis added.)…California’s Department of Industrial
       Relations encompasses a number of state agencies including, e.g.
       the Division of Labor Standards Enforcement; the Occupational
       Safety and Health Administration; the Industrial Welfare
       Commission, the Employment Development Department, the
       Unemployment Insurance Appeals Board - - large, state-wide
       agencies that function in and/or have jurisdiction over – and often
       local offices – every one of our service areas. While CRLA
       advocacy concerning regulatory rule-making can be tracked through
       Cohen-Bumpers reporting requirements, the vast majority of
       activities undertaken by our advocates that fall within the scope of
       this request is incalculable. On a daily basis, CRLA staff may be
       discussing with, e.g., a local Deputy Labor Commissioner, or the
       Counsel whether a particular existing regulation is being properly
       applied to calculate penalties on unpaid wages; or CRLA staff may
       be discussing with a locally-based Cal-OSHA Compliance Officer or
       a state-wide industry enforcement coordinator or Cal-OSHA’s
       General Counsel whether a regulation addressing use of the
       driverless-tractors has been appropriately applied to use of remote
       engine-“kill” switches, or whether an agency should be encouraging
       its staff to spend greater time in “field monitoring” and
       “investigations” instead of desk-analysis, and/or whether and when
       an agency should investigate a complaint from a laborer concerning
       employer non-compliance on a work-force-wide basis rather than
       individually. Every one of these activities falls within the OIG
       document demand for ‘comments’ on ‘current regulations’ and/or
       ‘other policies’. And individual employee time-records (reporting
       under ‘cases’ or ‘matters’) will reflect these activities. But none of
       the activities falls within Cohen-Bumpers record-keeping
       requirements, nor under any other LSC statutory or regulatory

49
    Letter from Jose Padilla, Executive Director, CRLA, to Karen Sarjeant, Vice President for
Programs and Compliance, LSC, June 14, 2006, p. 3.
50
   Id. (quoting Data and Document Request from Kirt West, LSC OIG, to Jose Padilla, Executive
Director, March 16, 2006) (emphasis in CRLA letter not in original OIG Request).


                                                                                          26
        requirement for tracking. Thus, while records may ‘exist’, there is no
        way of locating them except by a hand-review of every individual
        time-record for every single CRLA advocate…for the entirely of their
        working hours over a 3+-year period…51

Furthermore, a Memorandum submitted at CRLA’s 2003 Priorities Setting
Conference from Ellen Braff-Guajardo, CRLA Project Director, to Jose Padilla
states “as a result of ongoing negotiations with Cal/OSHA, we now are much
closer to a statewide protocol for the acceptance of CRLA-initiated, rather than
worker-initiated, administrative complaints.”52

CRLA staffs’ discussions with CalOSHA regarding how the agency should spend
its resources to ensure compliance with the laws, i.e. how to investigate a
complaint, and negotiations with the agency to change the way complaints may
be filed and seem to be “attempt[s] to influence…[a] statement of general
applicability and future effect by any Federal, State, or local agency,” in violation
of LSC’s 1996 Appropriations language. Just as the promulgation of a regulation
itself is a statement of general applicability and future effect, so is a governing
agency’s application of its regulations, often captured in documents such as
operations, policies and procedures manuals and guidance letters, and otherwise
captured informally by agency practice. Likewise, advising an agency how it
should spend its limited resources is in effect telling the agency how it should
generally carry out its mandate, what it should prioritize. How an agency applies
its regulations and carries out its mandate affects all those who come before it,
and not just the particular rights, benefits or interests of an individual client.
Thus, negotiations affecting a change in the manner in which a complaint may be
filed with or is investigated by an agency, including whether to investigate a
particular individual’s complaint or to use an individual complaint as a reason to
investigate the entire workforce results in a practice of general applicability and
future effect. All of these activities are an attempt to influence agency decisions,
formal or informal, resulting in statements of general applicability and future
effect. Influencing such agency decisions appears to be the precise type of
activity Congress sought to prohibit LSC grantees ability to engage.

        2. CRLA Engages in Various Types of Monitoring Activities.

According to the CS, Community Workers from the Modesto Office “spent time
going into fields to monitor…sanitation conditions.”   Additionally, CRLA’s
applications for LSC funding, CRLA Annual Reports, statements made to the
OIG by CRLA Community Workers and various statements by CRLA to the press
51
   Id., pp. 3-4. The OIG and CRLA have discussed this request and have agreed on a starting
point for CRLA’s review and gathering of information for response. The OIG is awaiting CRLA’s
substantive response pursuant to this clarification.
52
   The referenced protocol would appear to facilitate CRLA’s filing of complaints without a client.
Memorandum to Jose Padilla, Luis Jaramillo, CRLA Board of Directors, CRLA Staff from Ellen
Braff-Guajardo, CRLA Project Director, Agricultural Work Health Project, re: Agricultural Work
Health and Safety Report for the November 2003 Priorities’ Conference, October 14, 2003, p. 5.


                                                                                               27
indicate CRLA engages in a number of monitoring activities typically relating to
farmworker and Latino issues and often absent a specific client. Although not
necessarily in violation of the laws and regulations governing the use of LSC
funds, CRLA’s monitoring of issues for possible CRLA involvement in impact
work, creates the conditions for instances of noncompliance with federal laws,
see discussion supra Part III.A.3, and diverts resources away from the provision
of services to clients who seek assistance. Below are but a few instances of
CRLA monitoring activities:

•    Labor -- Monitoring activities include extensive field monitoring to assess
     compliance with applicable laws by agricultural employers. CRLA’s Proposal
     Narrative for the LSC 2004 Grants Competition states that six of its field
     offices have “in recent years focused on efforts…to monitor and promote
     compliance with field sanitation and safety requirements.”53 “Field Sanitation
     in Venture County: When Cal-OSHA Fails Its Job,” recounts CRLA’s
     monitoring of Ventura County fields for noncompliance by employers
     beginning in 1989 and continuing, at least, through 1998.54 CRLA’s 2002
     Annual Report reports CRLA’s close monitoring of H-2A applications
     submitted by agricultural employers. According to its own Annual Report,
     CRLA community workers began to investigate an Oceanside tomato grower,
     apparently without a client, when the Department of Labor approved the
     employer’s H-2A application. The story also indicates that the aggrieved
     plaintiffs learned of their claim against the grower only after CRLA
     investigated.55 Luis Rivera, a Community Worker for the Stockton Migrant
     Unit but based in the Modesto Office, stated that he spends 70% of his time
     on community education and outreach work that consisted of field monitoring
     and observing farmworkers at their worksite.56 May 2003 Six Month Work
     Plans for Modesto Office employees indicates that Community Workers
     spend up to 80 % of their time monitoring agricultural workers on the job and
     attorneys either participating in or coordinating monitoring of agricultural
     workers, including coordination with other CRLA offices.

•    Education -- CRLA monitored California’s monitoring of public school system
     for compliance with court orders and federal and state laws particularly
     regarding Limited English Proficiency students, namely Hispanic students. In
     the Comite de Padres case,57 concerning the compliance of the California

53
   CRLA Proposal Narrative for 2004 Grants Competition, p. 51. The 2004 Grants Competition is
the most recent competition for which CRLA was awarded a three year grant. CRLA has since
provided Grant Renewal Applications that do not deviate from the Narrative set out in the 2004
Grants Competition.
54
   CRLA 1998 Annual Report, p. 4.
55
   CRLA 2002 Annual Report. p. 5.
56
   Memorandum of Interview with Luis Rivera, Community Worker, CRLA Modesto (December
21, 2005).
57
   Comite de Padres de Familia v. O’Connell, No. CV281824 (Cal. Super. Ct. filed May 25, 1979),
termination of consent decree aff’d, CO42166, 2004 Cal. App. LEXIS 1027 (Cal. Ct. App. Jan. 30,
2004).


                                                                                            28
     State Board of Education with requirements that it ensure that students with
     limited English proficiency and non-English speaking students receive
     instruction in a language they understand and which resulted in a settlement
     agreement requiring the State to monitor the implementation of bilingual
     education programs,” the CS monitored the State’s monitoring of the
     programs with DLAT Rice, then DLAT Daniel and two attorneys from
     Multicultural Education, Training, and Advocacy (META). The CS stated that
     CRLA was not representing a client in conjunction with the monitoring
     activities, though she charged her time to a client named in the Comite case.
     The CS also stated that this client later became CRLA’s all-purpose client58
     for education issues, particularly issues regarding English as a Second
     Language (ESL) students.

•    Public Benefits – CRLA’s Proposal Narrative for the LSC 2004 Grants
     Competition states that CRLA intends to “monitor state and county
     implementation of benefits programs through problem-solving meetings with
     state and county officials.”59

Although monitoring of a case settlement on behalf of a client or monitoring the
activity of an adversary may be entirely appropriate advocacy for an LSC grantee
to undertake, apparently CRLA often engages in monitoring activities that are not
on behalf of an interested client. CRLA’s monitoring of issues in which CRLA
wishes to be involved, which appears to be in search of instances in which CRLA
can engage in impact work, creates the conditions for instances of
noncompliance with federal laws. CRLA’s monitoring activities often raises the
issues addressed in Part III.A.3.c, regarding work performed without a client.
Time spent monitoring any given situation without a client, be it the activities of
private parties or state actions, draws limited precious resources away from their
intended purpose, for CRLA to provide legal aid to clients who seek assistance.

        3. CRLA Filed Cases Under California’s Unfair Competition Law on
           Behalf of the General Public and Who Are Otherwise Not Named
           Plaintiffs.

Until portions of California’s Unfair Competition law (UCL), CA Business and
Professions Code §17200, were reformed in 2005, CRLA used the UCL to seek
redress from employers for more than just clients represented by CRLA. Under
the title “Making an Impact,” CRLA’s 2002 Annual Report explains how CRLA
uses the UCL “to file lawsuits that will result in payment of back wages to all
workers affected by the illegal practices workers [sic].”60 Many of the workers on
58
   According to the CS all-purpose clients are client files that CRLA keeps open, regardless of
whether the actual service to the client has concluded. CRLA advocates record time in all-
purpose client files when advocates perform work on a case or matter but are not actually
representing any client in the case or matter because no client has sought assistance regarding
the case or matter. CRLA’s all-purpose clients are effectively straw man clients.
59
   CRLA Proposal Narrative for 2004 Grants Competition, p. 13.
60
   CRLA 2002 Annual Report, p. 7.


                                                                                            29
whose behalf CRLA filed litigation, under the name of “the general public” may
not have been eligible for LSC funded services. Nonetheless, CRLA filed
litigation on their behalf and sometimes recovered damages on their behalf and
administered a fluid recovery on their behalf. CRLA’s Annual Report goes on to
say that “[f]iling strong court actions has resulted in bringing the employer to the
settlement table.”61 Similarly, the same Annual Report states that CRLA used
the UCL tool in the H-2A monitoring cases also.

In 2004 California voters passed amendments to the UCL. One of the most
significant changes eliminated private lawsuits brought on behalf of the general
public. Now, a UCL plaintiff who seeks to represent individuals other than
himself must abide by the rules and procedures governing class actions.62

        4. CRLA Files Amicus Briefs.

In a five-year period ending in 2005, CRLA filed at least 10 amicus briefs in
federal and California appellate level courts.63 CRLA did not file all of the amicus
briefs on behalf of clients64 and kept questionable time keeping records on those
filed on behalf of clients. The filing of amicus briefs in CRLA’s institutional
capacity rather than serving individual clients appears consistent with the
allegation that the grantee desires to be involved in cases that the grantee
deems will have an “impact.”


            a. CRLA Files Amicus Briefs in Its Institutional Capacity and Not on
               Behalf of Any Client.

CRLA filed three of the identified briefs in its “institutional” capacity. A copy of
the minutes of an April 29, 2000 telephonic meeting indicates that the Executive
Committee of CRLA’s Board of Directors discussed changing CRLA’s policy of
filing amicus briefs on behalf of a client “so that CRLA is not limited to only
representing individual clients but to represent CRLA itself of this kind of amicus
argument.” One board member commented that “in these political times, the
policy of having a client to represent is well founded…[but] we need to adapt to
changing times and we need to participate in that forum as amicus with a
stronger position.” The Board passed a motion to allow CRLA “to represent

61
   Id.
62
   The OIG recently learned that CRLA is currently attempting to the employ the UCL tool to file a
representative action without first following the required class action procedures. Though the OIG
has not undertaken a comprehensive evaluation of California’s reformed UCL, a cursory review
begs the question of whether a representative action filed under the UCL is tantamount to filing a
class action. If filing a representative action under the UCL is, in effect, the same as filing a class
action lawsuit, CRLA may be in violation of Part 1617 of LSC Regulations, which prohibits any
grantee from participating in a class action lawsuit.
63
   The OIG has not conducted a comprehensive search for CRLA amicus filings.
64
   CRLA’s filing of amicus briefs on behalf of clients is not inappropriate so long as the filings do
not otherwise violate LSC restrictions.


                                                                                                   30
clients or CRLA [in the filing of amicus litigation] when appropriate and at the
discretion of the Executive Director.” CRLA filed these three briefs not on behalf
of a client, but in its “institutional” capacity. A DLAT working on one of the cases
charged all of his time to an existing CRLA client with similar issues as those on
appeal. Other DLAT time spent working on amicus litigation without a client is
categorized as an “activity.” Again, CRLA’s filing of amicus briefs in its
“institutional” capacity seems inconsistent with the premise on which funding is
supplied, to provide legal assistance to eligible clients.

Many of the briefs appear to be joined by a number of other private attorneys and
civil rights and poverty organizations, indicating the availability of other counsel to
perform this work. These briefs include those filed on behalf of particular clients
and those filed by CRLA in its “institutional” capacity. The multitude of other
attorneys and organizations available to represent the interests of the poor
community via the filing of amicus briefs raises concerns regarding CRLA’s use
of resources. Although CRLA certainly can use its non LSC funds to file amicus
briefs representing itself rather than an eligible client,65 as indicated supra note 9,
LSC grantees are reportedly turning away half of the clients who seek services
due to lack of funding.

It is not for the OIG to judge the wisdom of using non-LSC resources to file
amicus briefs rather than for representation of individual clients. The filing of
amicus briefs in CRLA’s institutional capacity rather than serving individual
eligible clients, however, appears consistent with the allegation that the grantee
desires to be involved in cases that the grantee deems will have an “impact.”

              b. Even When CLRA Files Amicus Briefs on Behalf of Clients The
                 Quality of Timekeeping Records Is Questionable.

The timekeeping and intake documents for several of the cases raises questions
of accurate timekeeping; such as: a retainer agreement requesting CRLA service
pertaining the filing the amicus brief dating more than one year after the date of
the initial intake documents, and in which the intake documents indicate one
attorney sent a letter on behalf of the client one year prior to a separate attorney
keeping time under the client’s file. The client’s file appears to still be open in
CRLA’s database. Also puzzling is attorney time charged to clients other than
the client on whose behalf CRLA filed the amicus; the filing of amicus briefs on
behalf of and time charged to clients whose cases are not affected by the filing,
i.e. the clients’ cases have already been resolved favorably for the client; time
being kept as an “activity” or a “matter” more than one month before the client
intake sheet indicates the CRLA acquired the client and not affiliated with the
client CRLA purports have filed on behalf of but who is not listed in the filing,
rather CRLA appears to have filed on behalf of the defendant-appellant. Such
timekeeping irregularities raise doubt as to the accuracy of CRLA’s timekeeping
records and the integrity of a basic accountability tool.
65
     The OIG has not yet determined the source of funding supporting these activities.


                                                                                         31
D.     CRLA’s Timekeeping and Case Management Practices Create Conditions
       in Which Advocates Can Serve Undocumented Persons Without
       Detection.

The CS and a second witness stated that employees are expected to serve
undocumented persons and those employees who do not provide services to
undocumented persons are looked down upon by the organization. The CS
stated, “I personally provided legal services to undocumented aliens on CRLA
time and using CRLA resources and I am aware that other CRLA Modesto staff
did as well.” The CS also stated, “[b]eyond the parameters of what I was willing
to do, there was a clear feeling among certain CRLA staff that anyone unwilling
to serve undocumented persons is a bad person.” The CS stated that time spent
serving undocumented persons was charged as a “matter.”66 The CS stated that
the former Directing Attorney “directed that if an undocumented individual was
provided assistance there was to be no paperwork attached to the intake. The
directive was that any paperwork which had been generated should be
destroyed.” The CS and other attorneys did not destroy the paperwork and
attached it to the case file despite the Directing Attorney’s mandate. The CS also
stated that undocumented persons who were served were not given a case
number nor entered into the case management system, as is typical for all other
clients CRLA sees. Rather, the former Directing Legal Secretary kept a separate
binder for the advocates to access in order to determine if and what kind of the
services CRLA had previously provided the client.

The second witness corroborated that undocumented persons were served and
that a separate binder containing their information was kept while the former
Directing Attorney was there. The witness also stated that she served
undocumented persons, or at least provided the client with an informational
packet or referral, permissible under LSC regulations. The witness also stated
that after the Directing Attorney left, the Acting Directing Attorney ordered that all
clients, undocumented or not, unserved or not, were to be entered into the case
management system and given an case number. The witness stated that
Community Workers who gained and assisted clients while out in the field did not
always enter their clients, some of whom are undocumented.

Based on the OIG’s understanding of how clients are served and entered into
CRLA’s case management system, the OIG determined that the CS’s account of
how the Modesto Office was able to serve and not document service to
undocumented workers appears entirely plausible. The OIG interviewed the
Modesto Office staff regarding how clients are processed through intake. The
OIG understands that the receptionist hands walk-in clients an intake form to be
filled out. The receptionist tries to assign the client an intake number before the
client sees an advocate, but sometimes the receptionist is not able to enter the

66
   LSC’s timekeeping regulation requires time be kept for all cases, matters, and supporting
activities. See LSC Regulations, supra note 6, Part 1635.


                                                                                         32
client into the case management system before the client sees the advocate.
When the client sees an advocate before being entered into the case
management system, the advocate returns the intake form to her at the end of
the day for her to assign the client a number. Advocates close all of the cases
and assign the closing codes; however, if the client cannot be provided service,
the client’s case is closed as a “matter.”

Under CRLA’s intake system, CRLA advocates could easily provide services to
undocumented persons and no record of that service would ever exist.
Employee six month work plans for the Modesto Office advocates indicate that
persons seeking assistance from CRLA are not processed in the ideal manner
described above. As a result, an undocumented person may receive services
from a CRLA advocate but no record of the service may ever be created by the
intake personnel.      Based on the CS and witness statements, former
management of the Modesto Office directed such activity. Furthermore, CRLA
Community Workers may easily provide services to undocumented persons while
monitoring agricultural work sites and no record may ever be created. Internal
communications and timekeeping documents indicate that CRLA Management
was aware of the lack of accountability for Community Workers’ time. The OIG
intends to develop additional evidence concerning the CS’s allegations.

E.    CRLA Allegedly Focuses Its Resources on Latino Work.

The CS and another knowledgeable witness both stated that in their respective
views CRLA focuses on issues benefiting California’s farmworker and Latino
community. According to both, CRLA believes that other advocacy groups focus
on issues such as domestic violence, public benefits, etc… and that the
farmworker and Latino issues are “[CRLA’s] thing.” The CS and the witness
believe that CRLA’s focus on the provision of services to the Latino community,
particularly through impact work, results in the provision of inadequate service to
other segments of the poor population within CRLA’s service area, including
other ethnic groups and those living in urban areas. Specifically, the CS stated:

      I also believe that CRLA’s work demonstrates a bias toward serving
      farmworkers and Latinos. While I support legal assistance in those
      areas, CRLA is often the sole recipient of legal services monies in
      increasingly urbanized areas. Further, the service areas are
      broadly diverse. Yet in Modesto, for example, the Community
      Committee (which is supposed to be reflective of the service area
      population) does not include any African Americans, Southeast
      Asians, etc. In addition, little – if any – outreach/information service
      is provided to non-Latino community groups.

The CS also recounted two instances in which non-Latino persons required
extended services from CRLA’s Modesto Office, as it is the only legal aid
provider in the area, but could not find anyone to help them. The CS stated that



                                                                                 33
she attempted to assist each as much as possible but “the demands of ongoing
impact work [ ] prevented me from accepting their cases for full representation.”

The CS and the witness believe the following CRLA management behaviors
support this assertion:      CRLA’s Modesto Office expected staff to serve
undocumented persons, and they believe this practice is not specific to Modesto;
CRLA interjects itself into high profile cases involving Latino issues, such as the
CCC v. Modesto case, the McBride Case, and the Ceres Case, see discussion
supra Parts III.A.2.a. & b. and note 15.; CRLA Management is disinterested in
impact cases unless the case involves a Latino or farmworker issue, such as the
mobile home case also described supra note 15; CRLA favors employees who
work on Latino issues; and CRLA Management and staff inappropriately travel to
Mexico.

The OIG has begun developing facts surrounding this assertion. The OIG is
reviewing specific information provided by the CS. The OIG is also reviewing
other evidence that tend to bolster or weaken this allegation, including: CRLA’s
internal procedures, policies and practices; CRLA publications and
representations to the public; CRLA communications with LSC and other
evidence developed by the OIG.

The OIG notes that though each of the behaviors alleged by the CS in support of
the assertion may, indeed, be true, a determination of whether CRLA truly
expends its resources in a manner that disproportionately favors services to
Latinos and farmworkers may not be possible due to the lack of accountability in
LSC timekeeping requirements.67




67
     See introductory Note of this report, supra pp. iii-iv.


                                                                                34
                                  Conclusion

The OIG substantiated the general assertion that CRLA is focused on impact
work and developed substantial evidence to support several particular findings of
noncompliance by CRLA. At this time the OIG is unable to conclude on the
permissibility of several other potentially problematic activities in which CRLA
engages. The OIG intends to further investigate the unresolved issues as soon
as the access issues with CRLA are remedied.




                                               Kirt West
                                               Inspector General


                                               September 13,2006
